<html>
<title> - H.R. 2513, A BILL DIRECTING THE ADMINISTRATOR OF GENERAL SERVICES TO ACQUIRE A POSTAL SERVICE BUILDING IN TERRE HAUTE, IN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 H.R. 2513, A BILL DIRECTING THE ADMINISTRATOR OF GENERAL SERVICES TO 
          ACQUIRE A POSTAL SERVICE BUILDING IN TERRE HAUTE, IN

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2513

 TO DIRECT THE ADMINISTRATOR OF GENERAL SERVICES TO ACQUIRE A BUILDING 
        LOCATED IN TERRE HAUTE, INDIANA, AND FOR OTHER PURPOSES

                               __________

                           SEPTEMBER 29, 1999

                               __________

                           Serial No. 106-118

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
64-490                     WASHINGTON : 2000

                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
   Bonnie Heald, Director of Communications/Professional Staff Member
                          Chip Ahlswede, Clerk
                     Michelle Ash, Minority Counsel
                    Trey Henderson, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 29, 1999...............................     1
    Text of H.R. 2513............................................     2
Statement of:
    Creed, Gordon, Deputy Assistant Commissioner for Property 
      Disposal, Public Buildings Service, General Services 
      Administration.............................................    33
    Jenkins, Jim, Terre Haute, IN................................    17
    Nation, Todd, Save the Architecturally Magnificent Postal 
      Station, Downtown Terre Haute, Inc.........................    20
    Pease, Hon. Edward A., a Representative in Congress from the 
      State of Indiana...........................................     9
    Rynne, Edward J., Jr., real estate specialist, Asset 
      Management Group, U.S. Postal Service......................    40
    Whitlock, James, Assistant Regional Administrator for Public 
      Building, Great Lakes Region (Region 5), General Services 
      Administration.............................................    28
Letters, statements, et cetera, submitted for the record by:
    Creed, Gordon, Deputy Assistant Commissioner for Property 
      Disposal, Public Buildings Service, General Services 
      Administration, prepared statement of......................    35
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Letter dated September 27, 1999..........................    27
        Prepared statement of....................................     4
    Jenkins, Jim, Terre Haute, IN, prepared statement of.........    19
    Nation, Todd, Save the Architecturally Magnificent Postal 
      Station, Downtown Terre Haute, Inc., prepared statement of.    23
    Pease, Hon. Edward A., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    11
    Rynne, Edward J., Jr., real estate specialist, Asset 
      Management Group, U.S. Postal Service, prepared statement 
      of.........................................................    41
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     7
    Whitlock, James, Assistant Regional Administrator for Public 
      Building, Great Lakes Region (Region 5), General Services 
      Administration, prepared statement of......................    30

 
 H.R. 2513, A BILL DIRECTING THE ADMINISTRATOR OF GENERAL SERVICES TO 
          ACQUIRE A POSTAL SERVICE BUILDING IN TERRE HAUTE, IN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Ose, Turner, and Mink.
    Also present: Representative Waxman.
    Staff present: J. Russell George, staff director and chief 
counsel; Randy Kaplan, counsel; Bonnie Heald, communications 
director and professional staff member; Chip Ahlswede, clerk; 
P.J. Caceres and Deborah Oppenheim, interns; Michelle Ash and 
Trey Henderson, minority counsels; and Jean Gosa, minority 
staff assistant.
    Mr. Horn. A quorum being present, this hearing of the House 
Subcommittee on Government Management, Information, and 
Technology will come to order.
    The focus of today's hearing is H.R. 2513, introduced by 
our colleague from Indiana, Representative Ed Pease. This bill 
is of great importance to Mr. Pease's constituents, the people 
of Terre Haute, IN.
    The bill would direct the Administrator of General Services 
to acquire a Postal Service building located in downtown Terre 
Haute. The building, a three-story Indiana limestone structure, 
was constructed in 1935 through a Depression-era public works 
project. The building is listed on the National Register of 
Historic Places, but it is sorely in need of repair.
    Historically, the building has housed Federal courts, the 
Post Office and several other Federal offices, including the 
Social Security Administration, the Federal Bureau of 
Investigation, and the Internal Revenue Service. Following the 
Postal Reorganization Act of 1970, the building was transferred 
from the Federal inventory to the U.S. Postal Service. Because 
of its declining condition, however, a number of Federal 
tenants have already moved out. Without repair and 
modernization, the local community fears that the remaining 
tenants, including the Postal Service, will also leave. The 
General Services Administration has estimated it will cost 
between $4 million and $5 million to renovate the aging 
building.
    In 1997, the Postal Service's main processing and 
distribution operation moved from the downtown building to a 
new location; however, a small retail outlet still remains at 
the site. In addition, building tenants include the U.S. 
district and bankruptcy courts, the Federal Bureau of 
Investigation, the U.S. attorney, the U.S. Marshal, and 
Representative Pease's district office.
    The subcommittee marked up the bill and reported it to the 
full committee without amendment on September 22, 1999. Today's 
hearing is being held at the request of the ranking member of 
the full committee Mr. Waxman and the subcommittee's ranking 
member, Mr. Turner, both of whom requested further 
consideration of this legislation.
    We have a knowledgeable group of witnesses before us today. 
We will hear from Representative Pease; local officials, 
including the mayor of Terre Haute, Jim Jenkins. We will also 
hear from representatives of both the Postal Service and the 
General Services Administration. We want to learn about the 
Postal Service's efforts to maintain this historic structure 
and potential restoration plans under the property management 
leadership of the General Services Administration.
    We welcome the witnesses. We look forward to your 
testimony.
    [The text of H.R. 2513 and the prepared statement of Hon. 
Stephen Horn follow:]


106th CONGRESS
1st Session
                               H. R. 2513

 To direct the Administrator of General Services to acquire a building 
        located in Terre Haute, Indiana, and for other purposes.

                                 ______
                                 

                    IN THE HOUSE OF REPRESENTATIVES

                             July 14, 1999

  Mr. Pease introduced the following bill; which was referred to the 
  Committee on Government Reform, and in addition to the Committee on 
  Transportation and Infrastructure, for a period to be subsequently 
   determined by the Speaker, in each case for consideration of such 
 provisions as fall within the jurisdiction of the committee concerned

                                 ______
                                 

                                 A BILL

 To direct the Administrator of General Services to acquire a building 
        located in Terre Haute, Indiana, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. ACQUISITION OF BUILDING.

    (a) Acquisition.--The Administrator of General Services shall 
acquire by transfer from the United States Postal Service the real 
property and improvements located at 30 North Seventh Street in Terre 
Haute, Indiana.
    (b) Reimbursement.--The transfer under subsection (a) shall be made 
without reimbursement, except that the Administrator shall provide to 
the Postal Service an option to occupy 8,000 square feet of renovated 
space in the building acquired under subsection (a) at no cost for a 
20-year term.

SEC. 2. RENOVATION OF BUILDING.

    (a) In General.--The Administrator of General Services shall 
renovate the building acquired under section 1, and acquire parking 
spaces, to accommodate use of the building by the Administrator and the 
United States Postal Service.
    (b) Authorization of Appropriations.--Subject to the requirements 
of section 7(a) of the Public Buildings Act of 1959 (40 U.S.C. 606(a)), 
there is authorized to be appropriated to carry out this section 
$5,000,000 for fiscal years beginning after September 30, 1999. Such 
sums shall remain available until expended.

                                   
[GRAPHIC] [TIFF OMITTED] T4490.001

[GRAPHIC] [TIFF OMITTED] T4490.002

    Mr. Horn. I now yield to the gentleman from Texas Mr. 
Turner, the ranking member of the subcommittee, for an opening 
statement.
    Mr. Turner. Thank you, Mr. Chairman. It is appropriate that 
we have this hearing and that the GSA has expressed some 
reservations about the project. I am personally very 
sympathetic to Mr. Pease's legislation. Being from a small town 
myself, I understand how important it is to preserve the 
downtown area. I think it is very important for us to have this 
hearing today because the bill would transfer the building to 
the General Services Administration, with reservations being 
expressed by the GSA. It is important that we get them ironed 
out and get the matter resolved satisfactorily in order for the 
legislation to ultimately be meaningful.
    So hopefully today, by having this hearing, all parties 
have the opportunity to express their point of view. It is my 
hope that the ultimate outcome will be to see this building 
restored, its historical significance preserved, and it be an 
enhancement, rather than a detraction, to the downtown of the 
hometown of my good friend Ed Pease.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, thank you. I also came from a small town, 
and I agree with you, and we hope that the preservation aspects 
and the historic value would be worth saving.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.003
    
    [GRAPHIC] [TIFF OMITTED] T4490.004
    
    Mr. Horn. I want to now welcome the gentleman from Indiana, 
Mr. Pease to introduce the witnesses, and then he is welcome to 
join us here at the dais if he would like to pursue questions.
    So, Mr. Pease.

STATEMENT OF HON. EDWARD A. PEASE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Pease. Thank you, Mr. Chairman, Mr. Turner, the ranking 
minority member, to you and your staffs and the other members 
of the subcommittee with whom I have met and with whom my staff 
has met over the period of time in which we have worked 
together to try and reach an appropriate resolution of an 
admittedly difficult situation involving formerly Federal and 
now Postal Service property in Terre Haute, IN.
    I have prepared a statement that goes into much greater 
detail than I plan to orally and would request, Mr. Chairman, 
that that statement be included in the record.
    Mr. Horn. Without objection, it will be included at this 
point.
    Mr. Pease. Thank you, Mr. Chairman.
    Briefly, the background of the situation is this: The 
building that is currently occupied by the--that is owned by 
the U.S. Postal Service at Seventh and Cherry Streets in Terre 
Haute, IN, was originally a Federal building. It was a WPA 
building, and it housed a number of Federal agencies and the 
Post Office for many years until the Postal Reorganization Act 
divided some properties between the Federal inventory and the 
U.S. Postal Service, and this property, which was the main 
postal facility in western Indiana, was transferred to the 
Postal Service. In its modernization program of the last 25 
years, eventually there was built a new distribution center 
closer to the interstate in Terre Haute, IN, and the need for 
the extensive amount of space that the Postal Service had 
required before was no longer there.
    The building has included a number of Federal agencies 
through the course of its history. Some are still there. Most 
prominent among them, the U.S. District Court, the bankruptcy 
court, the FBI, the Marshal Service and several others, but 
those being the most prominent ones. One of our district 
offices is located in this building as well.
    The building is typical of many buildings from the WPA era. 
It is an imposing building. You will be told more about it, but 
it is also a large building that needs maintenance, and which 
the Postal Service has done the best they can, I believe, 
through the period of their stewardship. But to make the 
building more attractive and more competitive for other tenants 
is going to require more work, and the Postal Service has made 
it clear, and I do understand, that their major priority is 
delivering the mail. Management of buildings is secondary to 
that goal, and their presence in this building will be much 
reduced from what it was before, leaving them with a large 
building to manage really outside of the realm of their primary 
mission.
    The Terre Haute community, like many communities, has had 
difficulty in maintaining its downtown area, despite 
commitments by the city and by Indiana State University, which 
is an urban campus in downtown Terre Haute. There has been 
progress made, particularly in the most recent past, in trying 
to turn that around. The city has made substantial investments 
in the downtown area, but this is the most prominent historic 
building in downtown Terre Haute, and its presence as an anchor 
for the business and government activities of downtown Terre 
Haute is critical to the success of the efforts of the city, 
the Chamber and others to make the downtown area more viable 
than it has been in the recent past.
    Because the building is not as attractive in terms of 
office space and other facilities in Terre Haute have been, we 
have seen some of the Federal agencies that used to occupy that 
building move to private commercial leases in other space 
within the city of Terre Haute. Most prominent among them are 
the Internal Revenue Service, the Social Security 
Administration, the armed services recruiting offices, and the 
Department of Agriculture, although there are others. It is our 
belief that if this building is transferred, as we propose it 
should be, to the General Services Administration, which is in 
the business of managing buildings, and if we provide the 
resources that are necessary to make the building as attractive 
as we would like for it to be, that when those other leases 
expire for Federal space that is being rented elsewhere in 
Terre Haute, those tenants could be brought back to the Federal 
building, fully occupy the building, and make it a viable, 
government center for the city of Terre Haute, as well as 
preserve the historic integrity of the building and its 
importance in the downtown community.
    We have worked with the Postal Service and the GSA for 
almost 2 years on this project, trying to find ways that will 
work to the best advantage of everyone. We are convinced that 
this is the best proposal at this time, but we remain open to 
further conversations and discussions as the matter progresses. 
Thank you, Mr. Chairman, Mr. Ranking Member.
    [The prepared statement of Hon. Edward A. Pease follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.005
    
    [GRAPHIC] [TIFF OMITTED] T4490.006
    
    [GRAPHIC] [TIFF OMITTED] T4490.007
    
    [GRAPHIC] [TIFF OMITTED] T4490.008
    
    [GRAPHIC] [TIFF OMITTED] T4490.009
    
    [GRAPHIC] [TIFF OMITTED] T4490.010
    
    Mr. Horn. Well, if you would like to join us now, and if 
you could introduce the witnesses, we would like to hear from 
them, and please come up here and introduce them one at a time, 
and then we will ask the General Services Administration and 
the Postal Service to speak.
    Mr. Pease. Thank you, Mr. Chairman. I think first I should 
introduce the mayor.
    Mr. Horn. Let me swear in everybody just so we do not have 
to go through this every time. Why don't you all stand up. This 
is an investigatory committee of government reform, so 
everybody is sworn.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all five witnesses have 
affirmed.
    Mr. Pease. Mr. Chairman, would you like me to introduce 
everyone at the same time, or introduce one at a time and let 
them present?
    Mr. Horn. One at a time, and in the order you would like 
them to testify.
    Mr. Pease. Thank you, Mr. Chairman.
    The mayor of the city of Terre Haute is my good friend Jim 
Jenkins. Mayor Jenkins was the sheriff in Vigo County before he 
became the mayor of the city of Terre Haute. He has worked for 
years in community service in a variety of capacities, and he 
has been one of the leaders in trying to find appropriate ways 
to partner public and private investment in the city of Terre 
Haute to revitalize the downtown and to preserve our historic 
structures there.
    Mayor Jenkins has been part of our conversations from the 
first day in trying to find a way to resolve this positively 
and productively. I am grateful that he is here, the Honorable 
Jim Jenkins.

           STATEMENT OF JIM JENKINS, TERRE HAUTE, IN

    Mr. Jenkins. Good morning, Mr. Chairman, gentlemen. Thank 
you very much for allowing us to appear and speak to you today. 
We appreciate the opportunity.
    Approval of this bill is in the best interests of the city 
of Terre Haute, IN, and its citizens and businesses. We believe 
the existing Post Office building in downtown Terre Haute 
currently serves broad clientele that is important to our 
downtown. Major users of this Post Office include Indiana State 
University, Indiana Regional Government Center, City Hall, the 
Vigo County courthouse, and also our downtown retail and office 
community.
    The city of Terre Haute is working very hard to improve 
this downtown to make the city a more desirable place for 
people to choose to live and to enhance the marketability of 
the community as a whole.
    A new vision statement has also been adopted to guide our 
downtown development. Businesses are converting upper floor 
space to apartments, building facades are being restored, the 
streetscape is being enhanced, an art museum is being 
renovated, and a major mixed-use urban renewal project is under 
way. The Post Office renovation has the potential of being the 
next major downtown civic improvement project.
    The Terre Haute community is working together in a united 
front to maintain the Post Office downtown and see that this 
building is restored. Entities such as Indiana State 
University; Downtown Terre Haute, Inc.; the Alliance for Growth 
& Progress; the Chamber of Commerce, both of whom are 
represented here today with the Alliance director Mr. Bill 
Price, the Chamber of Commerce incoming chairman Mr. Thomas 
Francis is also with us today; the Indiana Landmarks 
Foundation, and also local government, we are committed to the 
purpose of and the adoption of H.R. 2513.
    I believe the Post Office should remain in its present 
downtown location for the convenience of the public. The 
building is certainly able to accommodate the space needs of 
the Post Office, especially now that they have been reduced. In 
addition, there are a number of other Federal offices in Terre 
Haute that could be consolidated into this downtown building 
that are now scattered throughout the city. Moving these 
offices to a building that is already owned by the Federal 
Government would save money, we believe, and be beneficial to 
the downtown economy.
    I was born and raised in Terre Haute, a citizen, and have 
lived there all my life, served in public office, and I have 
seen Terre Haute change a great deal, especially over the past 
30 years. Prior to the building of the interstate, which is 
located south of the city about 3 miles, U.S. 40 was the main 
route through the middle of town, the National Road, as you may 
be aware of, going from the east coast all the way to St. 
Louis. Once the interstate was constructed, the downtown 
virtually moved 3 miles south of its original location. The 
retail and commercial shopping all centered and located around 
the interstate, and as such, the downtown languished and 
withered over those 25 or so years. It finally bottomed out, if 
you will, buildings being torn down and businesses moving out, 
and the community as a whole has decided over the past 5 to 7 
years that we must restore the heart and soul of the community 
of Terre Haute, and that is its downtown.
    It is a story not unlike many others throughout the Midwest 
where the downtown has withered, languished, and we want to 
show the rest of the world that the community of Terre Haute 
has a past, has a history that we are very proud of, and it 
also has a very viable heart and soul, and that is the 
downtown.
    This particular building is very prominent in the downtown. 
It is just a half block off the National Road. It would serve 
any number of purposes, it does serve any number of purposes, 
especially as a tie to the university. The university is 
separated from the downtown again by one block. This particular 
building allows for Post Office boxes and mailing services, 
window services and other kinds of services for the students at 
Indiana State University.
    So we believe it does any number of things, but it is 
essential to us restoring our heart and soul, and we would 
appreciate greatly your support of the adoption of Congressman 
Pease's bill. Thank you.
    [The prepared statement of Mr. Jenkins follows:]
    [GRAPHIC] [TIFF OMITTED] T4490.011
    
    Mr. Pease. Mr. Chairman, I would next like to introduce 
Todd Nation. Todd is a businessman in downtown Terre Haute, has 
been actively involved in Downtown Terre Haute, Inc., but he 
has also been involved in the historic preservation programs of 
the community and in a particular volunteer civic association 
whose goal it was to maintain a postal presence in this 
building and to maintain the viability of this building.
    As an aside, I note for the chairman's benefit that Todd 
owns an independent book shop in downtown Terre Haute, because 
the chairman looks for independent book shops whenever he 
travels, and I hope someday we will get you to downtown Terre 
Haute and you can go to BookNation.
    Todd Nation.

STATEMENT OF TODD NATION, SAVE THE ARCHITECTURALLY MAGNIFICENT 
           POSTAL STATION, DOWNTOWN TERRE HAUTE, INC.

    Mr. Nation. Thank you, Congressman, Mr. Chairman. As Ed 
said, my name is Todd Nation. I have traveled here at Chairman 
Horn's invitation to represent the business community of 
downtown Terre Haute, IN. I own and run BookNation, a small, 
independent book shop on Wabash Avenue, about a block from the 
historic Post Office and Federal building in question here 
today.
    As a long-time member and immediate past president of our 
local Main Street organization, Downtown Terre Haute, Inc., I 
have been very involved with local efforts to persuade the U.S. 
Postal Service to keep downtown's post office box and window 
services in the Post Office and Federal building. My neighbors 
and I agree that the historic facility is in the neighborhood's 
best location for these services.
    We also believe that this property should again become the 
central location for Federal offices like the IRS, Social 
Security, military recruiters, and the Department of 
Agriculture, as the mayor just said. Those offices and others 
are now scattered throughout the community, while space within 
our taxpayer-built Post Office and Federal building has sat 
empty downtown for years.
    STAMPS Downtown, our organization. In 1997, the U.S. Postal 
Service announced their intention to relocate all postal 
functions housed in the historic main station. Offices, sorting 
machinery, fleet parking, retail windows and other operations 
were consolidated in the new Terre Haute postal facility at the 
southern edge of town. Luckily, Postmaster Ken Hartweck 
recognized the need to maintain post office box and window 
service somewhere downtown, but he began advertising for 
leasable space to locate a new retail unit within a mile of the 
historic facility. Most available options would be too far away 
from their neighborhood customer base, most of whom now walk to 
the centrally located Post Office and Federal building.
    These announcements caused great concern in the downtown 
community. Neighborhood businesses and residents joined forces 
with local government, Indiana State University, the Historic 
Landmarks Foundation of Indiana, our Chamber of Commerce and 
other local, not-for-profit agencies in an extraordinary 
demonstration of community resolve to form Save the 
Architecturally Magnificent Postal Station Downtown, known by 
its acronym, STAMPS Downtown. We have been very fortunate to 
have the support of our Congressman Ed Pease, who has helped us 
carry our message all the way here to you in Washington, DC.
    Why this legislation is necessary.
    This situation merits your attention for a number of 
reasons. I will briefly explain the top three. No. 1, restoring 
the Post Office and Federal building to accommodate postal 
retail operations and relocated Federal offices will save 
taxpayers money and serve us better in the long run. Renting 
offices and parking lots throughout the city, while our 
historic and centrally located downtown facility deteriorates 
further, is wasteful. Local taxpayers expect better stewardship 
of our funds and facilities than we have seen in recent years.
    No. 2, the General Services Administration ownership of the 
Post Office and Federal building will ensure proper maintenance 
and management of this taxpayer-built landmark. Postal 
officials have repeatedly cited the high cost of remodeling and 
maintenance as being their primary reasons for looking 
elsewhere for space.
    No. 3, keeping post office box and window services in the 
historic facility is the best thing that the Federal Government 
can do to help support State and local efforts to revitalize 
downtown Terre Haute. A regional State office building was 
established about a block away from the Post Office and Federal 
building a few years ago. In the past 2 years, local 
initiatives have aided the development of housing for nearly 
100 new residents within two blocks of the old Post Office. 
Those are all people who would use this facility and continue 
to use it. Indiana State University has recognized the 
importance of having an attractive, convenient downtown at 
their southern border and has repeatedly stated their wish to 
have postal services maintained where they are.
    Why doesn't the USPS just stay there?
    Throughout many meetings and discussions that we have had 
with the U.S. Postal Service, the only vision that postal 
officials could articulate for the Post Office and Federal 
building was their intention to try and find a suitable tenant 
to lease the building, but they made it clear that they did not 
intend to invest in upgrading the facility to make it more 
appealing. The USPS's advertised rental rates per square foot 
are also considerably higher than those of similar downtown 
office and retail space.
    The more information that we gathered about the U.S. Postal 
Service's management of this property, the more alarmed members 
of the STAMPS Downtown became. Local opinions were expressed 
through letters to elected and USPS officials, on the editorial 
page of the Tribune Star, our local newspaper, and in public 
meetings where the Postmaster and other USPS officials were 
begged to reconsider their plans for downtown service and the 
historic facility.
    The members of STAMPS Downtown hereby ask you to lead your 
fellow Representatives to the best solution for all parties 
involved. In H.R. 2513, Congressman Pease has proposed a 
solution to this set of problems that balances taxpayer 
concerns with the long-term
maintenance and management needs of our historic Terre Haute 
Post Office and Federal building.
    I stand ready to answer any questions that you might have 
about our organization's support of this legislation.
    Mr. Horn. Thank you very much.
    [The prepared statement of Mr. Nation follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.012
    
    [GRAPHIC] [TIFF OMITTED] T4490.013
    
    [GRAPHIC] [TIFF OMITTED] T4490.014
    
    Mr. Horn. I would ask Mr. Pease, is this the last witness 
locally?
    Mr. Pease. Yes, Mr. Chairman.
    Mr. Horn. I would like to read into the record the 
testimony of another witness from Terre Haute. I happen to know 
this gentleman to be a person of high integrity and a great 
educator. John W. Moore, president of Indiana State University 
at Terre Haute, happened to be a colleague of mine when I was 
president of California State University in Long Beach, and he 
chaired and was president of the Stanislaus campus, which is a 
growing campus in the central valley, and he writes me this 
note:

    I am writing to support the GSA receiving ownership of the 
Terre Haute Office and Federal Building from the United States 
Postal Service. It is crucial to the day-to-day operations of 
Indiana State University and others that the Federal building 
have a landlord that will maintain and invest in its historic 
significance and the services it provides to the community.
    Indiana State University, located adjacent to the Federal 
building, employs over 1,700 faculty and staff, serves a 
student population of nearly 11,000, over half of whom live on 
campus and some 500 of whom are international students. Also, 
each summer the university hosts literally thousands who come 
to the campus to participate in Hoosier Boys and Girls State, 
Special Olympics, Summer Honors, State Police, cheerleader and 
other such camps, to name but a few. The sheer volume of mail 
flowing in and out of the campus is staggering, not to mention 
the foot traffic to and from the Federal building.
    Also within the block housing the Federal building and in 
close proximity are the offices of the Vigo County School 
Corp., the Deming Center, a residential facility housing the 
elderly, city and county government operations, downtown 
merchants and businesses, a bus terminal. And a new city center 
project is currently under construction directly behind the 
Federal building.
    Revitalization of Downtown Terre Haute is critical to the 
city and university leadership and those we serve. A vital 
Wabash Valley depends on the revitalized downtown district, and 
the Federal building is a major component to that success. I 
strongly urge your endorsement of this effort.
    My respect and best wishes go to you and your colleagues in 
the House with this letter.
    Sincerely, John W. Moore, President, Indiana State 
University.

    Without objection, that letter then will also be put in the 
record at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.015
    
    Mr. Horn. So now we are pleased to have the experts on the 
Federal Government side, and we will start with Mr. James 
Whitlock, the Assistant Regional Administrator for Public 
Buildings in the Great Lakes region, region 5, of the General 
Services Administration. We thank you very much, Mr. Whitlock. 
We are happy to have you here, and we look forward to your 
testimony. Please proceed.

 STATEMENT OF JAMES WHITLOCK, ASSISTANT REGIONAL ADMINISTRATOR 
  FOR PUBLIC BUILDING, GREAT LAKES REGION (REGION 5), GENERAL 
                    SERVICES ADMINISTRATION

    Mr. Whitlock. Thank you, Mr. Chairman. We, too, have 
submitted an opening statement, and I would like to submit that 
for the record and just sort of summarize some points.
    Mr. Horn. Without objection, it will be inserted in the 
record at this point.
    Mr. Whitlock. It is impossible for us to disagree with the 
Congressman and the mayor representing the downtown, and the 
university president. The goals that are being outlined there, 
we face those in every one of the cities of this size with 
buildings of this character, especially one as attractive, 
historic, one that has murals. I mean, it has all of the 
ramifications of the types of things that should be preserved. 
And you can tell from the last couple of years of activity that 
there has been a lot of attempts to find ways to do that, and 
we have not yet found any. And one of the attempts--and this is 
not something just in Terre Haute. It happens in community 
after community. Finding ways to accomplish this is very 
difficult.
    The Congressman outlined some of the agencies that are in 
the community. GSA is no longer a monopoly. We have not the 
ability to order them to the space. It is interesting how 
Agriculture, which is basically funded through the State 
universities, tends to be, or demands to be located at the edge 
of town, serving farmers. They refuse to come downtown, and 
they think that is the proper thing for them to do, so they do 
it because they think that is the right answer, not because 
they are obstructionists about rebuilding downtowns.
    Recruiting, which you may have read in this morning's USA 
Today, is not meeting their goals. They tend to move wherever 
the movie theaters are, wherever they can pick up candidates 
for the services. So they are very concerned about getting 
close to where they see potential recruits.
    The last two agencies that are perhaps candidates, IRS and 
SSA, they moved from the building not so much because the space 
is not attractive, that is not their issue. They usually base 
their discussions on the need to be handicap-accessible, which 
is normally a first floor or a single location without steps. 
They stressed adequate parking as being very important because 
they are becoming customer-service agencies. But the most 
critical issue is it wraps around; going back into the Postal 
Service building is a technological difficulty with the 
functional obsolescence of getting cabling and wiring into 
those work stations, so they prefer to do that in a more modern 
building where they can do that at a lower cost.
    So there is a set of practical reasons why this just does 
not fall into place as we all wish it would. Based on that, GSA 
has taken the position that this is probably not a good 
building for us to own. We do not disagree we can manage it, 
that is not the issue. The issue is how can we keep it 
occupied.
    I wanted then to pass the baton to Gordon, who can talk 
about some of the ways that--there are other ways perhaps some 
buildings of this character might be able to be utilized.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Whitlock follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.016
    
    [GRAPHIC] [TIFF OMITTED] T4490.017
    
    [GRAPHIC] [TIFF OMITTED] T4490.018
    
    Mr. Horn. Mr. Gordon Creed is the Deputy Assistant 
Commissioner for Property Disposal of the General Services 
Administration here in Washington. Mr. Creed.

 STATEMENT OF GORDON CREED, DEPUTY ASSISTANT COMMISSIONER FOR 
 PROPERTY DISPOSAL, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Creed. Good morning, Mr. Chairman and members of the 
committee. I am Gordon Creed, Deputy Assistant Commissioner of 
the Office of Property Disposal within the General Services 
Administration.
    I am pleased to have the opportunity to appear before you 
today to discuss H.R. 2513, a bill that directs the 
Administrator of General Services to acquire a building located 
in Terre Haute, IN, and for other purposes.
    I will briefly discuss GSA's role in the disposal of 
government-owned property and how GSA would view the 
redeployment of this U.S. Postal Service asset under existing 
statutory authority.
    Commencing with the Surplus Property Act of 1944, which was 
administered by the War Assets Administration, and continuing 
with the enactment of the Federal Property and Administrative 
Services Act of 1949, GSA's mission has included the promotion 
of real property disposal, consistent with sound asset 
management practices.
    GSA promotes asset management in the property disposal 
program by three ways. One, we encourage agencies to release 
unneeded properties; two, recycling unneeded Federal property 
to agencies that are in need of real property; and three, 
disposing of property no longer needed by any Federal agency.
    GSA has more than 50 years of experience in the transfer 
and disposal of government real property assets, spanning from 
simple easements to complex military bases. Taxpayers benefit 
from the efficient transfer of property to non-Federal public 
and private interest. Surplus properties that are returned to 
local tax rolls contribute to economic growth and job creation.
    GSA objects to the enactment of H.R. 2513 because no 
administrative effort was ever made to promote and successfully 
market the redeployment of the Terre Haute property.
    In July 1985, GSA and the Postal Service entered into an 
agreement that covers the transfer, exchange and disposal of 
real property. The agreement established procedures for the 
Postal Service to notify GSA of postal real property that was 
no longer needed for its purposes; that is, excess to its 
needs. The agreement covered real property that is excess to 
the Postal Service for purposes of ownership, yet remains 
encumbered by existing tenant agreements.
    In recent discussions with Postal Service officials, I have 
learned that there is no need for the Postal Service to retain 
ownership of the Terre Haute property. I further understand 
that there are outleases issued by the Postal Service that need 
to be honored in any potential reuse of the property.
    Mr. Horn. I am going to have to interject for a minute. I 
have a commitment that I have to meet in Transportation. Mr. 
Ose will preside while I am gone, and then if you finish your 
testimony, Mr. Turner will have 10 minutes for questioning, and 
then next will be Mr. Ose, and then Mr. Pease and then Mrs. 
Mink.
    Mr. Ose [presiding]. Please continue.
    Mr. Whitlock. Thank you.
    GSA's leases account for 13,250 square feet of the 
building.
    I note that GSA successfully solved this same, very same, 
situation in 1998 when it disposed of the 11-story Federal 
building to the city of Philadelphia. Although this facility 
was excess to the needs of the General Services Administration, 
there was a continuing need to provide space for the Military 
Recruitment and Induction Center located on two floors of the 
building. After acquiring the property, the city of 
Philadelphia entered into an exchange transaction with the 
Pennsylvania Academy of Fine Arts so that the academy could 
gain additional space in which to accommodate its growing need 
for academic and gallery space. It is important to note, this 
disposal was favorably reviewed by this subcommittee.
    Another example of this type of successful redeployment of 
unneeded government-owned property is the former Federal office 
building in Asheville, NC, known as Grove Arcade. In 1997, this 
property was conveyed to the city of Asheville, without cost, 
for use as a historic monument. Section 203(K)(3) of the 
Federal Property Act authorizes this type of conveyance, and, 
in addition, allows for the transferee to generate income in 
operating the property. Thus, a revenue stream for repair, 
rehabilitation, restoration and maintenance of the property 
remains an option should the city of Asheville seek to outlease 
any available vacant space in this building.
    Is the Terre Haute property a potential historic monument? 
While the Advisory Board on National Parks, Historic Sites, 
Buildings and Monuments established by section 463 of Title 16 
makes the recommendation over the suitability of property as a 
historic monument, clearly the property's age, design and 
history seem to lean in that direction. Successful reuse of the 
Postal Service property appears to be the goal of the 
legislation, and to that end GSA stands available to assist the 
Postal Service in marketing this property.
    Because of the proximity of the Terre Haute building to the 
Indiana State University, it is also possible that an 
application could be submitted to the Department of Education 
for public educational use of the property. Section 203(K)(1) 
of the Federal Property Act allows for the conveyance of 
surplus real property for public educational use.
    Finally, I note that GSA's experience and brand name 
connote a quality in the real estate market often sought by 
developers who seek trophy properties for their portfolio. This 
could, in fact, be one of those desired properties.
    Mr. Chairman, this concludes my statement, and I will be 
pleased to respond to any questions you or any members of the 
subcommittee may wish to ask.
    Mr. Ose. Thank you, Mr. Creed.
    [The prepared statement of Mr. Creed follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.019
    
    [GRAPHIC] [TIFF OMITTED] T4490.020
    
    [GRAPHIC] [TIFF OMITTED] T4490.021
    
    [GRAPHIC] [TIFF OMITTED] T4490.022
    
    [GRAPHIC] [TIFF OMITTED] T4490.023
    
    Mr. Ose. Our next witness is Edward J. Rynne, who is a real 
estate specialist with the Postal Service.

  STATEMENT OF EDWARD J. RYNNE, JR., REAL ESTATE SPECIALIST, 
          ASSET MANAGEMENT GROUP, U.S. POSTAL SERVICE

    Mr. Rynne. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Edward J. Rynne, and I am on the staff 
of the Asset Management Group at Postal Service headquarters. I 
thank you for this opportunity to discuss H.R. 2513, a bill to 
direct the Administrator of General Services to acquire the 
Federal building owned by the Postal Service in Terre Haute, 
IN.
    At the outset, I would like to thank Congressman Pease and 
his staff for the considerable time and energy they have 
expended on this matter. I would also like to state that we 
share the Congressman's desire to resolve this matter in a way 
that preserves the character and usefulness of the Federal 
building while also meeting the need of our customers in Terre 
Haute, as well as the practical and financial interests of the 
Postal Service and the government as a whole.
    Mr. Chairman, much of the information in my prepared 
statement has already been conveyed and with your permission, I 
would like to submit my entire statement for the record and 
offer a few brief comments.
    Mr. Ose. Without objection.
    Mr. Rynne. The proposed legislation, H.R. 2513, would 
attempt to resolve the current situation by requiring a no-cost 
transfer of the Federal building to the General Services 
Administration. In turn, GSA would provide the Postal Service 
with an option to occupy approximately 8,000 square feet of 
renovated retail space on the ground floor of the building at 
no cost for a 20-year term. The bill would also authorize the 
appropriation of $5 million to GSA in future fiscal years to 
renovate the building and to acquire parking spaces.
    This proposal would achieve at least two major goals. It 
would preserve and improve a historic Federal building for use 
by key government tenants and maintain an active Postal Service 
presence in the Federal building, which we believe serves the 
interests of our downtown and university customers. We also 
understand that it would pose some interesting challenges for 
the General Services Administration.
    In conclusion, I want to reiterate that we appreciate the 
progress that has been made on this issue, and we look forward 
to working with the interested parties to resolve this matter 
in a way that serves the important interests of all concerned.
    At this time I would be glad to respond to your questions.
    Mr. Ose. Thank you, Mr. Rynne.
    [The prepared statement of Mr. Rynne follows:]

    [GRAPHIC] [TIFF OMITTED] T4490.024
    
    [GRAPHIC] [TIFF OMITTED] T4490.025
    
    [GRAPHIC] [TIFF OMITTED] T4490.026
    
    Mr. Ose. Mr. Turner.
    Mr. Turner. Thank you, Mr. Ose.
    One of the comments I wanted to inquire about was made by 
you, Mr. Creed. You made the statement, GSA objects to the 
enactment of H.R. 2513 because no administrative effort was 
ever made to promote and successfully remarket the deployment 
of the Terre Haute property.
    Expand on that a little bit. Are you referring to the 
Postal Service's inaction?
    Mr. Creed. No. What I am suggesting here, Congressman, is 
that GSA has not had the opportunity to conduct a nationwide 
canvass of those parties that are interested in acquiring 
government assets. We have not attempted to market this 
property.
    Mr. Turner. So when you refer to no administrative effort 
was ever made, you are talking about your efforts. You haven't 
had the opportunity to make those efforts?
    Mr. Creed. That is correct.
    Mr. Turner. As I understand the intent of the bill, it was 
to transfer the property to your agency and then have your 
agency renovate it and lease it. That seems to be totally 
inconsistent with what you just referred to about marketing it 
or disposing of it. Am I missing something here?
    Mr. Creed. No. You are absolutely correct.
    Mr. Turner. And do I take it that your vantage point is 
that you really do not want to even consider renovation and 
leasing of the property?
    Mr. Creed. Respectfully, Mr. Turner, I think that Mr. 
Whitlock can better address that question.
    Mr. Whitlock. I think we were trying to point out that even 
though we know the building needs to be preserved, I mean, 
there is no disagreement about that, we are trying to point out 
that the use of further Federal occupancy, the agencies that 
were sort of outlined, most likely would not agree to reenter 
the building, with or without renovation. So it puts us in a 
financial dilemma to take $5 million, give or take, out of our 
resources and to modernize the building.
    There is also the issue of a 20-year postal occupancy, 
which is sort of a fairly expensive cost issue that we are not 
quite sure why that provision is there other than to perhaps 
reimburse the Postal Service for their ownership of the 
building.
    From a strictly financial standpoint, and we are trying to 
analyze our projects on the basis of financial practices, it 
doesn't work with that equation with Federal agencies. But we 
did not want to close out the discussion of making the building 
work with all kinds of other possibilities between both the 
disposal, which is a formal process, declaration of excess by 
one agency giving it over to GSA and then goes through a 
formalized process. Our involvement to this point has simply 
been to look from a localized standpoint what is available 
within the community to make the building viable in the future. 
So there is a difference between the short term or the local 
activity versus the broader-based activity.
    Mr. Turner. You made reference to the fact that you don't 
think other Federal agencies would come back to this building. 
When their existing leases expire, how would you attempt to 
attract those agencies back? Would you just be a bidder as any 
other bidder in that process, and would you submit a bid to the 
agency for the space?
    Mr. Whitlock. Well, that is a good question. In prior 
times, we would have ordered them to the building, and their 
appeal process would have been to OMB, and we would usually 
win, because economics would rule. But in the last decade, that 
has changed. And if we were to attract them to a building we 
own, we have to modernize it and offer it to them, and they 
must accept it on the basis of what we have done for that 
particular agency, and then they have the opportunity to say, 
well, that doesn't meet our requirements, and on that basis 
then, we go into the lease market.
    I would like to note that most of our leasing for IRS and 
SSA, for example, we do still insist that they remain in the 
downtown areas. But that is controlled by residential Executive 
order, so they have to follow that as well as we do. So even if 
we are in the lease market, we are still in the downtown of 
these communities.
    Mr. Turner. So I guess some of our Federal agencies could 
simply, in their specifications, when they advertise for bids, 
expect that you wouldn't even be an eligible bidder because of 
your location or because of some other characteristic of the 
property?
    Mr. Whitlock. It is inevitably wrapped around excess, 
parking, and technology requirements.
    Mr. Turner. What is the parking situation at this building?
    Mr. Whitlock. My understanding is there are 20 parking 
spaces.
    Mr. Turner. Somebody estimated a $5 million cost of 
renovation including the acquisition of additional parking 
spaces? Is that part of the plan, to acquire additional space?
    Mr. Whitlock. I think that is in the proposal.
    Mr. Turner. Is there space available for that?
    Mr. Jenkins. Yes, sir.
    Mr. Turner. It seems that obviously we have a variety of 
players here with different interests. I think it is probably 
important to step back and look at the big picture. I think 
Congressman Pease and the community leaders have done so in 
trying to fit this all together in a way that will preserve 
this building. My impression, just seeing the picture here of 
the building, is it certainly appears to be one that is 
structurally sound and has historical significance and deserves 
to be preserved. I am as interested, as are you, in trying to 
figure out how to accomplish that.
    I think it was important for us to have this hearing. If we 
have chosen a pathway of trying to resolve this problem that is 
meeting resistance by one of the partners, that is in this case 
the GSA, it is going to be a difficult road to travel down, 
even if the legislation passes. I think it is real important 
for us to try to figure out a way to get through this.
    If the GSA did acquire the building, would you then be in a 
position of being able to use the resources of the GSA to 
explore the various options for the preservation of the 
building, or are you constrained in some way that you basically 
could not accomplish that end result that we all seek? It would 
seem to me that the GSA should be in a better position to do 
that and to work through that than perhaps the Postal Service. 
The resources you have, the expertise you have, it seems to me 
you are uniquely suited in trying to help resolve this 
particular issue.
    If we made a decision legislatively that the building was 
going to be preserved and the building was going to be 
utilized, could you take that task on and attempt to resolve 
that in some way that would make sense?
    Mr. Whitlock. I think we have been in that situation many 
times before. When the Postal Service and GSA separated 
inventories almost 30 years, it was basically whoever 
controlled the majority of the space in the building became the 
owner of the building. Here now in this time, we have a lot of 
buildings of this vintage facing the same circumstance. It is 
very difficult to find the continuing use that almost always 
becomes a money problem: Where do the funds come from to do the 
renovations or to do the maintenance? And it becomes then from 
an investment standpoint difficult to rationalize the amount of 
dollars it takes. It is just a difficult equation, and I 
absolutely agree that we need to find solutions for it. And 
GSA, of course, could do that.
    We have simply two concerns. One is using the resources 
that we gather from rents around the country in the buildings 
we lease to our Federal tenants, directing them to be utilized 
for a specific project is not our preference. We usually do 
that through an economic analysis, and based on the tenant, 
expectations of the tenant base, we wouldn't see this coming up 
high on our economic analysis. That has been our concern. Of 
course, the second one would be a rent-free occupancy to a 
given agency that would simply be all cost and no income.
    So this discussion from our perspective is strictly on the 
financial side of the business. It is not on the emotional 
side, it is not on the preservation, it is not on supporting 
the city, it is on the financial investment side.
    Mr. Turner. I think we all know is that your responsibility 
is to look at it in terms of the economics. Yet it is apparent, 
I think, to all of us that there are other, valid 
considerations such as historical preservation.
    The Department of Agriculture has a plan to have one-stop 
shopping in all of our communities where you can go into one 
location and see the different agencies. It seems to me to be 
even a valid suggestion for all of our Federal agencies, that 
if there can be collocation, that that is helpful to the 
general public, because they know there is one place to go to 
to reach the Federal Government and its services.
    Is this a policy of the government and of your agency, to 
value a collocation of Federal agencies?
    Mr. Whitlock. Yes, and has been for as long as I can 
remember. Collocation would be desirable because of reducing 
costs and the usual discussions of why that would make sense.
    The thing I have noticed, and perhaps the chairman has, 
too, in some of his investigations, is that the reform effort 
takes place, agencies are making more and more decisions to 
deal with technology and the cost of technology and how they 
deliver their services. It has occurred to us that the cost of 
technology per person exceeds the cost of space. It changes the 
equation in how we have to look at these things. So it becomes 
more difficult for us to simply drive decisions based on space 
costs when personnel and technology costs are rising. So it 
makes them behave differently now compared to how they used to 
in the past.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn [presiding]. I notice the ranking member of the 
full committee is here, and I would be delighted to yield you 
time now if you have other things to do, or I can go to Mr. Ose 
and then to you; but if you need to go, you can go right now.
    Mr. Waxman. I appreciate it. I will take advantage of this 
opportunity. I will try not to take the full 10 minutes.
    I am trying to think this thing through. We all want to 
help out a colleague who wants to accomplish something 
worthwhile in his district, but on the other hand, as I 
understand it, this is a building where there is a lot of 
vacancy, and it would be transferred over to the GSA that 
doesn't want it, and we would tell the GSA, you have to take 
it, and then we would spend $5 million of taxpayers' funds to 
fix it up. And then after you rent it for a while, I gather you 
still believe there would be a lot of vacancy in the building. 
Is that an accurate statement of where things are?
    Mr. Whitlock. Pretty much. I mean, from the standpoint of 
the potential clients we see coming back into the building are 
quite limited.
    Mr. Waxman. So are people that always say, let's run 
government like a business. I can't imagine a businessman 
undertaking such a transaction.
    Now, one possibility, it seems to me, is directing the sale 
to a private entity using the historical or education use 
exceptions to a public sale, and then including in the contract 
that the private entity give USPA a 30-year lease option. 
Wouldn't that accomplish the goal? Isn't this what we would 
want to do, privatize things rather than have government run 
something that is a money-loser? And if we can privatize it, 
you would still have the building, and you have an entrepreneur 
who has a reason to want to fill it up. I just think the 
private sector could do this better than GSA, if you will 
forgive me, because it doesn't sound like it makes a lot of 
sense for GSA to take this on. Mr. Pease or others, what are 
your views on that?
    Mr. Creed. There are many other opportunities available for 
the redeployment of the property. In California, at Riverside 
County, the Riverside County Sheriff'S Department has submitted 
an application to acquire a portion of the former March Air 
Force Base to establish the Ben Clark Public Safety Training 
Center. With the proximity of this facility to the Indiana 
State University, and the Indiana State Police's intent in 
acquiring classrooms, this structure could be redeployed as a 
successful law enforcement/educational-type facility where you 
have shared accredited classes for law enforcement. This is 
something that Riverside County is pioneering. A successful 
redeployment is possible, I believe, in fact, there is a 
courtroom that could potentially be deployed on a part-time 
basis for law enforcement training--giving evidence, 
prosecuting cases, cross-examining witnesses. There are those 
types of connections, away to connect the dots to find a 
successful redeployment.
    We talked to the Department of Education yesterday and 
asked if a program of use for education were presented to the 
Department of Education for this facility, could a Post Office 
operation be consistent with an educational use of the 
building? Education says, yes, we think so. And the reason for 
that is because--and from what we heard earlier--is that 
students have mailboxes, mailing needs, packages, and those 
activities could be reviewed as supporting an educational-type 
use.
    Mr. Waxman. So you think this idea makes sense.
    What would be the timeframe for doing such a sale? Could 
this be done rapidly?
    Mr. Creed. Things like this can be expedited, yes.
    Mr. Waxman. Let me get the reactions from others, because 
this seems to me like a good solution to the problem. What 
troubles me is the solution that is being proposed, which is to 
take taxpayers' money, put $5 million into this building, force 
GSA to take a building they don't want, and run it with the 
expectation that it is going to lose money. That just doesn't 
add up to me, but this other one sounds like it accomplishes 
everybody's goals.
    Could we have some further reaction to this?
    Mr. Jenkins. Mr. Waxman, part of the problem we see here is 
the building has now been leased up due to its--the purpose of 
it and who owns the building is all up in the air. We just--
people are hesitant, I think, to lease space or to try to 
utilize space in the building because they don't know what is 
going to happen to it. The city has taken on a project called 
Center City Project to construct a $6 million building right 
downtown, right across the alley from this Post Office 
building, in an effort to try to bring people downtown, to 
cause people to live downtown, those that choose to, and the 
private sector has taken up the task here of locating various 
businesses downtown, that kind of thing.
    Mr. Waxman. Are you saying that you don't think the private 
sector would be interested in this?
    Mr. Jenkins. I don't know that--I am sure it could be 
interested in it, but I would feel more comfortable with GSA 
managing, owning it, in that it is such a large building.
    Mr. Waxman. What you are saying, it sounds to me, is if it 
is going to lose the money, the government should take it on 
and lose the money rather than let private enterprise try to 
make it work.
    Mr. Jenkins. Well, here the government--it is our tax 
dollars that would be going----
    Mr. Waxman. This bill is asking for my taxpayers to pay for 
your building.
    Mr. Jenkins. That's right.
    Mr. Waxman. It is hard for me to explain. This is a small 
thing, the people aren't going to notice it, but a billion 
here, a million here does add up. But if you take $5 million 
from everybody in the country, put it into this building to 
upgrade it, force GSA to take this building and then divert 
resources they would spend on other things to take on this 
enterprise, and with everybody's expectation that it is 
probably going to lose money----
    Mr. Jenkins. Well, we would also like to see the 
centralization of services as discussed here also. The State of 
Indiana has done just that in a building one block away, 
centralized the State offices in the Indiana State government 
center there, and it has been quite successful and met with a 
great deal of praise, because you can go to one building and 
receive all of the State services that are available. It would 
be nice, it would be very efficient, I think, to go to this 
building and receive the Federal services that are available in 
the city as opposed to going to Social Security.
    Mr. Waxman. I don't disagree with that, and I think we can 
get the Federal agencies to locate there. That is all a plus.
    I haven't been involved in this, but Mr. Ose from 
California has, and maybe I will even yield to him, to hear 
what he would have to say about this kind of a project. He has 
advised people and probably made some intervention, or, Mr. 
Pease, if you want to comment on it.
    Mr. Pease. Just one response, Henry. I am not certain that 
I agree, although I admit that I am not the expert, with the 
assertions made by GSA that the other Federal tenants would not 
move to this building. There is provided in the material 
distributed this morning information on the leases of other 
Federal agencies in the city of Terre Haute which exceed the 
square footage of available space in this building. Now, it is 
the other tenants that are in private facilities, obviously 
have chosen to be there because they are nicer quarters or for 
whatever reason, but we know from our conversations with, for 
instance, the Social Security Administration that they need 
more space than they have now in their private lease space.
    Mr. Waxman. So you think they will relocate here.
    Mr. Pease. I think it is premature to say it will not 
happen and, therefore, you should not proceed with the bill.
    Mr. Waxman. Well, we want it to happen, we want it to 
happen. But why not shift it over to somebody in the private 
sector to make sure that it is going to be more attractive than 
to force GSA to take funds away from other efforts to hope that 
they will do it?
    You are supposed to be a conservative, and I am supposed to 
be a liberal. Now, wouldn't the conservative point of view be 
that government should not be throwing money and wasting it, 
and we ought to privatize; we have a historical building, we 
ought to preserve it. That is fine. The government could say, 
continue to do that. But if you think that it is going to be 
occupied, let's turn to the private sector to run it rather 
than have the taxpayers take the chance.
    Mr. Pease. I don't disagree with that. In fact, we have 
said from the beginning that we will explore every option to 
make this work. Our objective is to make it work for the city 
of Terre Haute.
    Mr. Waxman. Do we need legislation if we are going to have 
a sale to private enterprise?
    Mr. Whitlock. No, we do not need legislation for that.
    Mr. Pease. GSA needs to own the building for it to dispose 
of the building, though.
    Mr. Whitlock. The property would need to be reported excess 
by the Postal Service to GSA, and what we do is we go and meet 
with the local authorities, the mayor, the county, the State 
government, those interested parties, prior to even going to 
the private sector to see if coalitions can't be made and 
opportunities can't be matched, to see first--because as a 
historic monument, the city could acquire the property without 
cost and then lease out the facilities, maybe as a police 
substation or a precinct or campus police, to try to make those 
matches for the competing needs prior to the time that we would 
go ahead and take the property to the market.
    Mr. Waxman. I sure would like to try that out before we 
take this other approach.
    I wanted to yield to Mr. Ose, but I gather it will be his 
time anyway. He has had these experiences. If people came to 
him, what would you do?
    Mr. Horn. Well, he will be next. The moderate progressive 
between the liberals and the conservatives just wants to get a 
question in here.
    Mr. Creed, I think you are familiar with the Fort Mason 
situation, aren't you, in San Francisco and what happened on 
that property? As I remember, GSA briefly owned that property. 
Give us a little background on that.
    Mr. Whitlock. I think we are speaking in San Francisco in 
the marina district it was a U.S. Army facility that was 
successfully redeployed and turned into a cultural center for 
the performing arts, and it has been a very much big success, 
being able to preserve it and to invite the community and to 
participate in it. So there are other activities that are 
available. Parks and Recreation has a performing arts center as 
a potential reuse for this property.
    Mr. Horn. Let me just mention one more thing. I am not 
familiar with the Terre Haute Post Office, but I happen to have 
in my district a beautiful Post Office with wonderful materials 
in it, WPA, Works Progress Administration, paintings and murals 
all over, and this is in San Pedro in my district, and if this 
Post Office is something like that, built in the 1930's, it is 
probably a work of art that should be kept, because it 
personifies the solidity, shall we say, of government, just 
like the bank buildings in that era also. It looked like your 
money was safe. So if it was that kind of Post Office, I agree 
with you, I think it ought to be worth saving for a good 
purpose.
    Mr. Waxman. I don't think anybody disagrees with that.
    Mr. Horn. So I now yield 10 minutes to the gentleman from 
California Mr. Ose, and then we will recess for the vote, since 
we apparently have votes on the floor.
    Mr. Ose. Thank you, Mr. Chairman. I appreciate the 
confidence my good friend from California vests in my opinion.
    I am struck, as I am every day, by the realization that 
real estate remains an exceptionally local industry. I don't 
pretend to be able, having come from Sacramento, to understand 
the nuances of the Terre Haute market, for instance. I think 
the financial questions that you might deal with a 70,000-
square-foot office building are pretty straightforward, but I 
am--I have a hard enough time understanding what is going on in 
Roseville 8 miles down the road as opposed to what is going on 
in Terre Haute. My inclination is to put great faith in the 
valuations provided by my good friend Mr. Pease and the mayor 
of Terre Haute in an effort to expedite a solution, because if 
there is anything that doesn't serve this property's--one 
truism, if you will, is that what doesn't serve the interest of 
this property is uncertainty. We need to come to a conclusion 
one way or the other.
    I am going to put great stock in the testimony or the input 
that I take from folks who actually live in Terre Haute on this 
issue. I just don't have the wherewithal to understand the 
nuances of the Terre Haute market sufficiently that it would 
give me comfort to override their input.
    Mr. Waxman. Will the gentleman yield?
    Mr. Ose. Certainly.
    Mr. Waxman. I can understand that point of view, and maybe 
we can ask Mr. Pease. Why not try this private sector option, 
and we could all together do whatever is necessary to push that 
forward. It would protect the historical site, and it wouldn't 
be calling on taxpayers to take on something that smells like a 
money-loser and force GSA to take on property they don't feel 
they can handle properly. It just doesn't add up to me. Do you 
think we can do something like that?
    Mr. Pease. I have been willing for the last 2 years of 
working with GSA, who has apparently communicated more with you 
than they have with me, to resolve this project, but I dispute 
the premise of your questions, which is that it could not be a 
viable facility and would be a drain on the taxpayers, because 
GSA is leasing more space in the city now than is available in 
this building, and the building is 75 percent occupied now.
    I have been and will continue to be willing to talk about 
any possible option and to operate in good faith with those 
that I hope will do the same in return.
    Mr. Waxman. Well, I thank you for that. I want to work with 
you to accomplish what you want. If this is a viable business 
option, it seems to me that it ought to be appealing to the 
private sector, and I think you have GSA's attention, if they 
haven't been as forthcoming as you would like. I think we ought 
to sit down and talk about this as we consider this legislation 
and see if we can try this option first before we move to a 
government solution with taxpayers at risk and the taxpayers at 
risk of losing more money, let alone the $5 million that the 
taxpayers are going to have to put up for this legislation to 
upgrade the building so that it does become, hopefully, a 
viable option.
    I would urge that we pursue that together, and I want to 
work with you, and I hope we can accomplish what you want.
    Mr. Ose. Mr. Chairman, reclaiming my time, I yield back.
    Mr. Horn. We have a decision to make here. We have a rule 
vote, which is simple, followed by a 5-minute vote on the 
journal, which is idiotic, but we have to do these things. So 
we are going to be in recess, shall we say, for about 15 
minutes. Maybe we can make both votes. So with that, we are in 
recess.
    [Recess.]
    Mr. Horn. I recognize the gentleman from Indiana for 5 
minutes, and then we will move to Mr. Turner for 5 minutes, and 
then back to the gentleman from Indiana.
    So please begin.
    Mr. Pease. Thank you, Mr. Chairman.
    I am not sure which of the witnesses from the General 
Services Administration this would be best directed to, but I 
will let you decide that. Does the General Services 
Administration include factors other than the financial 
management of property in its decision regarding investment or 
utilization of buildings, such as downtown location, historic 
significance, those--well, are there other factors besides the 
finances that go into your decisions, and if so, what are they?
    Mr. Whitlock. GSA is covered by 29 laws and 9 Executive 
orders, so we have a lot of factors.
    Mr. Horn. You might get that mic a little closer.
    Mr. Whitlock. We are covered by 29 laws and 9 Executive 
orders, so we factor in lots of things. A lot of that has to do 
with historic preservation, downtown locations, you know, 
keeping downtowns viable, but we try to wrap all of those 
together and take the values of those things and come up with 
an economic equation to make those decisions, as opposed to 
make them on one individual or singular factor. It is hard to 
do, because all of them are valuable. So in the final decision, 
we try to base it on, well, do the economics make sense, and 
that is how we try to keep all of that in balance.
    Mr. Pease. Do you want to talk about the Wilson Building in 
Washington, DC, what factors went into that decision?
    Mr. Whitlock. Well, Congressman, I don't know about the 
Wilson Building in Washington, DC.
    Mr. Pease. Does somebody from GSA?
    Mr. Horn. Is it Wilson or Reagan?
    Mr. Pease. No. The Wilson Building, a historic building 
that was acquired by GSA. I assume there were other factors 
that went into that decision besides the economics. I am just 
curious what they are.
    Mr. Whitlock. I don't know. I don't know the decisional 
factors on that building, Congressman.
    Mr. Horn. Perhaps Mr. Creed would be the one who would 
know, I would think.
    Mr. Ratchford. Mr. Chairman, my name is Bill Ratchford, in 
charge of professional affairs at GSA.
    The people who can respond to that are not at this table, 
and they were not asked to come to this hearing. We have the 
region representative; we have the disposal representative. We 
would be happy to provide that briefing in a timely fashion for 
other members of the committee.
    Mr. Horn. I would be glad to hold a hearing.
    Mr. Pease. I don't need a hearing. My question is, which is 
what I wanted an answer to, your response was we do think about 
other things, but it is only economics. My understanding is 
that there is an example right in the city where there were 
other factors that drove that decision other than economics, 
and that is all I want to know.
    OK.
    Mr. Horn. Well, we will get an answer for that, and we will 
put it at this point in the record. Could we get it, Mr. 
Ratchford, in a week's time or 2 days' time, because I guess 
this is going to full committee for discussion.
    Mr. Ratchford. Yes, Mr. Chairman.
    Mr. Horn. Great.
    Mr. Pease. The bigger question is what are the factors, and 
that is really all I need to know. I just--that would be 
helpful to know.
    Mr. Horn. Mr. Rynne, we have heard a number of discussions 
here about other alternatives or possibly looking at other 
alternatives, which the Postal Service has been very 
cooperative, I will say, for the record with our office in 
trying to find other options. Are you familiar with this 
project and whether there have been other efforts explored, 
including private ownership, or would you also need to get us 
an answer on that?
    Mr. Rynne. I think I can speak reasonably specifically to 
that. This building was from the 1997 time period; in fact, 
almost 2 years ago exactly. Obviously it became our problem 
within the asset management group at headquarters and passed 
from the greater Indiana district. We had engaged the services, 
put under contract a local reputable property management firm 
called Newlin & Johnson, who have tried to marshal up as 
effective a marketing effort as they could, certainly 
principally focused on leasing alternatives for the building, 
rather than on an outright sale, but I do know from speaking 
directly with Mr. Newlin that he is constantly searching for a 
private user, and if that came within his field of vision, he 
would certainly communicate that to us. But his activities are 
specifically basically weekly advertising for the space at 
rates that we think are competitive within the Terre Haute 
downtown area, which at this point is about $10 a square foot 
triple net, it would seem.
    Mr. Horn. So it is $10 a square foot downtown; what is it 
outside?
    Mr. Rynne. It would presumably fall off. We are talking 
simply about the central business district, and admittedly it 
is not a thriving real estate market. That is one of the 
reasons we are all here today.
    Mr. Pease. If I could just ask one other question, Mr. 
Chairman.
    Mr. Horn. Sure.
    Mr. Pease. For Mr. Nation. Todd, I know you are here 
representing STAMPS and have an active role with the downtown 
merchants, but have you worked with larger umbrella historic 
preservation groups on this issue, and if so, can you tell us 
what their feelings are; how much of a priority, if any, this 
project is in the historic preservation community in western 
Indiana and in the State of Indiana?
    Mr. Nation. Sure. I have had contact with the Historic 
Landmarks Foundation of Indiana, which is a statewide historic 
preservation advocacy group, on this building. I am also--one 
of the many hats I wear is the vice president of a local 
historic preservation group called Terre Haute Landmarks. Terre 
Haute Landmarks has identified this as one of the 10 most 
endangered buildings in downtown Terre Haute.
    They are all of the opinion that this is a very significant 
property and that it is infinitely reusable, and it would be 
fairly easy to accommodate the kinds of uses that we have been 
talking about today.
    Mr. Pease. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you. I will yield 7 minutes to Mr. Turner 
for questioning.
    Mr. Turner. Thank you, Mr. Chairman.
    In trying to seek a resolution to this problem, it seems 
that the GSA, even though right now you don't have the ball, 
that if you would be willing to go in and take a look at this 
building and give us some assessment of what options might be 
there, it would be very helpful to us. And I know you don't own 
the building, the Postal Service does. Could you assume that 
role for us and give us some analysis of options without first 
owning the building? Is that outside of your purview?
    Mr. Creed. Mr. Congressman, I think we could pursue that 
approach and attempt a Herculean effort. We would ask that the 
Postal Service provide us some documentation, and I am sure--we 
have a good relationship with the Postal Service. They could 
give us that documentation in one letter that authorizes us to 
go ahead and to start making an outreach to see what potential 
reuse opportunities that may exist which we are presently 
unaware of.
    Mr. Turner. I think that would be very helpful to us. I 
commend Mr. Pease for trying to move forward with a solution, 
because it is very apparent, I think, to all of us here that we 
have different Federal agencies involved with different primary 
interests, and about the only way to kind of get everybody to 
come to the table at one time and talk is to put some 
legislative proposal out there.
    You know, I feel very strongly that Federal Government 
collectively has a responsibility for this building. It needs 
to be a continued asset to the community, rather than a 
detraction. It seems to me that whether you find options for 
some private concern taking over the building or whether it is 
the government continuing to run it, manage it, that this is a 
building that deserves preservation, and it deserves to be run 
efficiently.
    I noticed when the comments were made about the efforts 
that have been made locally through the leasing agency, Mr. 
Mayor, I am kind of in the position of Mr. Ose, I don't know 
anything about the Terre Haute real estate market, but it does 
seem pretty apparent to me that over the long term, there is 
not going to be too much success in leasing this building 
unless somebody goes in and makes some renovations and 
improvements. And the efforts that have been made by a leasing 
agent to lease the building as is seems to be somewhat of an 
uphill battle.
    One question I would like to ask. When we talk about 
exploring various options, obviously the GSA is in the position 
of being able to do that, but ultimately if we choose to 
dispose of this building, transfer it at no cost to some third 
party, doesn't the GSA actually have the legal authority to do 
that kind of thing, as opposed to the Postal Service? Either of 
you, I welcome your comments on that.
    Mr. Creed. GSA does have that authority in the Federal 
Property Act to convey the property without cost for historic 
monument purposes. And I believe the Postal Service has 
authority to sell and to lease, but I don't know about without 
cost. That seems to be a substantial factor for any grantee 
receiving the property, because in essence, it's capital coming 
to propel the project. We have seen in other parts of the 
country where custom houses have been conveyed and successfully 
leased out as historic monuments--maintaining the facade of the 
building. So, yes--there have been past practices and successes 
in that area.
    Mr. Turner. From the Postal Service, what is your 
authority?
    Mr. Rynne. Our general policy--and clearly this is an 
unusual circumstance--but our general policy would be to 
dispose of an excess facility in a way that would garner the 
best result for the Postal Service, sort of a prudent steward 
rule. Currently, I think in the current bill what we very much 
appreciate and what we realize has become somewhat of a 
challenge, one thing is--theoretically about trying to 
reposition the asset is the treatment of the postal space.
    To take just a quick historical step back, when the Postal 
Service relocated its principal operations from this particular 
building at Seventh and Cherry to the West Margaret location, 
which is a new, approximately 150,000-square-foot processing 
and distribution facility, the plan was to move entirely out of 
the Federal building and to reposition a small retail station 
of about 3,000 or 4,000 square feet very proximate to that 
location, and clearly, because of subsequent events, we have 
decided to maintain the presence in the building. That raises--
that brought us to the nub of the issue, where we are in more 
space than we would need to be in an exterior location.
    One thing I think we would certainly attempt to do in a 
good faith way is to squeeze down the amount of space we would 
need for the retail station. That is purely a function of the 
configuration of the first floor of the Federal building at 
Seventh and Cherry. There is a historic lobby that is really a 
monumental public space. It is actually very nice space. The 
trick would be to try to renovate that in such a way that it 
was an appropriate historical treatment of the building and to 
narrow down the space that the Postal Service would actually 
need. But that is the side of the building that the loading 
docks are on, and they would need to be included.
    I think that clearly a principal benefit we see from 
Congressman Pease's bill here is the right to remain there. It 
clearly wasn't our original intention, but recognizing the 
customer interest in that, I think the long-term goal would to 
be remain, but clearly under our disposal policy, I think that 
would be what we would figure would be the recompense for it.
    Mr. Turner. OK. I can understand why the bill is structured 
that way. You own the building, and, obviously, to transfer it 
to you, you see that as some remuneration. But I think you need 
to be flexible a little bit on that, if we ask the GSA to take 
a good hard look at really what are the options here.
    How long, Mr. Whitlock and Mr. Creed, would it take the GSA 
to report back to this committee with a full display of 
possible options that would give us something that we could 
look at as this bill moves forward so that we will be sure at 
the end of the day that we have arrived at a satisfactory 
resolution that preserves this building?
    Mr. Creed. Congressman, we would ask for the maximum 
allotted time to give us our best opportunities here, because 
we are abridging and shortening the process. Whatever time that 
we could be allotted we would ask for. So I don't wish to 
constrain our efforts here--I don't know what that period would 
be for your purposes.
    Mr. Turner. It just seems to me that it is appropriate that 
this bill move forward, because ultimately, it seems that 
placing title with the GSA is the best option, no matter where 
you end up at the end of the road, because you have the legal 
authority to do things that the Postal Service does not. It 
does trouble me a little bit that the transfer as proposed is 
encumbered with the 20-year lease at no consideration. But then 
again, there obviously are considerations there. I think 
ultimately it is important for that postal outlet to remain in 
that building for the long term. It is important for the Postal 
Service, and it is important, I think, for the community.
    But it would help us a little bit if you could give us some 
indication of what you would be comfortable with in terms of 
trying to give us some report, just as if the bill had already 
passed and you were now the owner of that building and you 
would have to make some assessment of what to do with it. That 
kind of information would be helpful to Mr. Pease and the 
committee in being sure that we resolve this successfully. This 
is our opportunity to have all of the agencies that have an 
interest here at the table and, in essence, craft a solution 
that is satisfactory to everyone.
    Mr. Whitlock. At the break we were talking about trying to 
come to some solution. Everyone spent a lot of time trying to 
think through this not only today, but in the couple years 
past, and we were fashioning that thought process to say, let's 
assume we do the maximum effort to acquire whatever 
possibilities there are to use the building. That is almost a 
blitz on the part of Gordon's people and some of ours to find 
imaginative solutions that perhaps don't just fall in the 
category as we have already discussed this morning. And Gordon 
can outline all over the country some of those unique things 
that have happened, and you don't know what the answer is until 
you kind of do that. So we were going to commit to working hard 
to do that, and it would take a number of weeks. I picked some. 
We are not quite sure how many would be appropriate.
    Mr. Horn. How many do you think would be appropriate?
    Mr. Whitlock. Well, probably a month to get us well into 
it.
    The other factor which occurs to me, because it becomes the 
basic problem, is the money, where does the money come from. 
And that almost inevitably is what makes a project work or not 
work. And a couple of contributions to an income stream make it 
a lot better when you are dealing with people who would be 
willing to take on this kind of a challenge, as the Postal 
Service calls it, a challenge. One is we would guarantee the 
rental from the courts; as long as the courts maintain 
occupancy, we will, of course, make rental payments to whomever 
the owner or the final disposition of the building would be to. 
We would make those payments. We were debating a little bit 
with the Postal Service about also making a contribution to the 
income stream for the space they occupy. I know that they 
consider it remuneration for ownership.
    Our problem we deal with here is there is almost no value 
to a building that has no occupants. In spite of how beautiful 
it is, it still has little value.
    So one of the things that we would try to do over this next 
month, if this is the right timeframe, is try to find 
possibilities, including as much income that we can contribute 
to it, so that whoever would have an interest would be able to 
depend on that as being part of covering their operational 
costs and things like that. So that would be--and then maybe 
that is the right solution to approach at this point in time.
    Mr. Horn. Let me just get a few things on the record in 
terms of the space and how it is utilized. As I look at this 
table I have been given, the total rented space is roughly 
31,000 square feet, 75 percent occupied, which is pretty good. 
The Post Office has really half of that square footage now, and 
that is 15,314 square feet.
    Could you tell me, Mr. Rynne, what that space allocation 
is? Is it mailboxes that people can come and get a lockbox 
there? Do you have clerks at the counter to process packages 
and help with stamps and all the rest? I would just be curious 
what is going on.
    Mr. Rynne. Yes. It is what we would refer to as a retail 
station, which is sort of the classic, over-the-counter stamp 
trade. There is also a very large post office box section. 
Because of the layout of the building on the first floor and 
the way the lobby penetrates that space, it is a long axis 
running the length of the building. Ideally, we would have 
tried to squeeze in something smaller. It is the nature of the 
architecture of the building that causes that occupancy to be 
so large for us at this point.
    Mr. Horn. So you are saying you could do it in less space.
    Mr. Rynne. Yes. The challenge would be how to design that, 
and I think one of the brief discussions we had with our GSA 
colleagues was to see if perhaps--I think we were using a 
figure of about 8,000 square feet currently. We would certainly 
try to assist in reducing that if that could assist. Once 
again, clearly we find that occupancy provision of the bill 
attractive, but we realize that if that could be reduced, it is 
less of a burden on a repositioning of the asset, clearly, if 
that space could be used to produce income.
    Mr. Horn. Now, that 15,000 plus square feet is all interior 
space.
    Mr. Rynne. That is correct. It is about 12,700 feet on the 
first floor; a small mezzanine space of about 2,500 or 2,600 
square feet.
    Mr. Horn. Now, when it was a full-blown Post Office for the 
city, you probably had space in back for the various office 
vehicles.
    Mr. Rynne. Right.
    Mr. Horn. What has happened there now?
    Mr. Rynne. Currently we have--it is approximately 20 spaces 
that are actually attached to the Federal building. We also 
lease a slightly larger than 16,000-square-foot site that is 
immediately abutting the property to the building. There are 56 
spaces in that. We have a lease on that that expires in 2002. 
There is a renewal option to kick that forward to 2007.
    Mr. Horn. And that is a privately owned?
    Mr. Rynne. That is privately owned. I believe there are six 
postal vehicles there currently.
    Mr. Horn. Do you run routes out of that Post Office?
    Mr. Rynne. No, we do not. Those 41 units moved to the new 
processing and distribution facility.
    Mr. Horn. Because what I am thinking, since I see Social 
Security is in the building, obviously if people get there, 
some could walk.
    Mr. Rynne. Actually, Social Security isn't in the building 
currently. They had moved out. IRS and Social Security had 
moved out.
    Mr. Horn. I see. Well, there are apparently a few people 
there, like the district court is still in.
    Mr. Rynne. Correct.
    Mr. Horn. Bankruptcy trustee, marshal, the representative 
that is with us, and the Federal Bureau of Investigation, the 
GSA joint use, and then the U.S. Attorney and a private 
attorney.
    Mr. Rynne. Correct. And also a bankruptcy trustee.
    Mr. Horn. How much of a problem was parking space to get 
access to the building by clients or whoever?
    Mr. Rynne. At this point I don't think there is a 
difficulty given the configuration of tenants in the building. 
Clearly, if this building were leased up, and depending on the 
nature of the use, parking starts to become--becomes a central 
issue, clearly.
    Mr. Horn. Can they use some of those 20 spaces, or is that 
all government use?
    Mr. Rynne. No, government tenants are using those. I know 
that the FBI is utilizing those on the right side of the 
building, and the potpourri of users are currently using the 
remaining spaces.
    Mr. Horn. And the 56 spaces, is that a parking lot that 
charges, essentially?
    Mr. Rynne. That is correct. We are currently leasing that 
space, and since the move-out, since we don't have a need for 
all of those spaces, we have been subleasing that, basically as 
a cost control item.
    Mr. Horn. I wonder, Mayor Jenkins, what is the downtown 
situation in terms of parking so people can go to stores and 
lawyers' offices, whatever it is?
    Mr. Jenkins. Generally people want to park right in front 
of the store and walk right in.
    Mr. Horn. You don't have to worry about it.
    Mr. Jenkins. We have a parking garage located just one 
block away.
    Mr. Horn. Is that free parking then, or validated?
    Mr. Jenkins. Darn near. It is 25 cents an hour.
    Mr. Horn. Hey, I want to move there.
    Mr. Jenkins. Come on down. We will be glad to have you. 
That is a city-owned facility, and it has adequate--there are a 
number of spaces still available, and there are plenty of 
spaces for day parking. We have also looked to a number of 
other options, including a cooperative effort with the 
university. They have a parking, plat, level ground parking on 
the northeast corner, directly across the street from the 
building, and we have discussed possibilities with the 
university there about another parking garage in this vision 
statement that we have prepared.
    So the parking, although I guess you would say it is 
cramped according to some local residents, possibly, it is 
absolutely nothing like you have here in larger cities. There 
is adequate parking, and there are plans to increase the 
parking spaces.
    Mr. Horn. I am curious, Mr. Creed. How does GSA determine 
what the cost per square foot ought to be, and is there 
flexibility for you to, if you wanted to attract people back 
into the downtown--like the Social Security lease expires in 
February 2001, and that is 6,143 square feet. Could you make a 
deal they couldn't refuse?
    Mr. Whitlock. We determine the value of the space by an 
appraisal mechanism, comparing other rents in town. We do the 
whole inventory that way so it is the same in each location and 
so it is a local rate, based on local conditions.
    Yes, we can make some concessions to attract tenants into 
the buildings. Their refusals are usually not driven by the 
dollars, but they are driven by the condition and technological 
improvements that are needed for the space. So we have the 
ability to do that, but that is often where we don't win that 
argument with those customer agencies.
    I think one of the things that, if we are drawn into trying 
to do something here where GSA reenters the equation, we 
certainly can revisit with those two agencies, those two 
primary, IRS and SSA, and again ask them to consider such. I 
mean, that is a no-cost way to get back into the discussion. 
With as much attention that has been drawn to the building and 
to the location, maybe with the Congressman's help we can 
persuade them to rethink that.
    Mr. Horn. What is the transit system like in Terre Haute? 
Is there a bus system?
    Mr. Jenkins. Yes, there is. It is also a city-owned 
facility. The transfer station is located two blocks away, 
obviously, and then various bus stops around the building.
    Generally, a lot of the traffic that we see there now is 
foot traffic, coming from the university, local businessmen, 
the downtown merchants, that is what we are seeing in that 
area; and then also from the Deming Center, which you referred 
to, which is an elderly housing development just a half block 
away at the corner of Sixth and Cherry. So it is very necessary 
for this neighborhood that we are trying to create, a mix of 
retail, commercial and residential.
    Mr. Horn. The gentleman from Indiana Mr. Pease can have 7 
minutes, 10 minutes, whatever.
    Mr. Pease. I won't use it all, Mr. Chairman. You have been 
more than generous.
    I am just curious if any of the witnesses would have 
recommendations to us on the bill before us, if there are 
additions, amendments, or other actions you think should be 
included or changed in the legislation. I do understand that at 
least the GSA's preferred position would be not to have a bill 
at all, and I would not ask you to bid against yourself. But if 
there are things that any of you would suggest either now or 
later, we would appreciate having those suggestions.
    Mr. Creed. We will take a look at it and comment back.
    Mr. Pease. I appreciate that.
    Mr. Chairman, I just wanted to thank you and the ranking 
member. This is obviously a difficult situation for everybody, 
and it has been for some years, and the people in the Terre 
Haute community have worked very hard to try and find a 
resolution that accommodates everyone's needs, and we 
understand that that is not easy. I appreciate the local 
government and the local private sector involvement. We have 
had help from staff from the Transportation and Infrastructure 
Committee that have been very helpful on this.
    I appreciate the Postal Service's time with us, and I know 
GSA has frustrations and concerns, but I am grateful for the 
opportunity for us to work together to try and find a way to 
solve this for the benefit of the people that I represent. 
Nobody could have been more helpful and supportive than the 
chairman and the ranking member have been, and I am very 
grateful for that. Thank you, Mr. Chairman.
    Mr. Horn. Well, I thank you. Let me just ask a few for the 
record that we feel we have to ask.
    Mr. Whitlock, I guess this really would be to you. Could 
you tell us how GSA reached the conclusion that there is not 
enough interest to sustain this building? Was that strictly in 
the Federal market because they wanted to move out into other 
areas, or does GSA look at a potential private market in any 
way? There is a private lawyer in there now, and I guess that 
is the only private use, is that correct, in the building?
    Mr. Whitlock. From the information we had, yes.
    Mr. Horn. It looks like it. All the rest are government 
services of one sort or the other.
    Mr. Whitlock. The analysis we did, which was based on the 
cost assumptions of similar buildings, our conclusions were 
that the income stream that was in the building, what we could 
expect to move back to the building, the income stream was less 
than the operating costs. That has, of course, been debated a 
number of times based on what assumptions one uses, but 
clearly, if it is not fully occupied at the rental rates in 
this community, it is hard for us to say this is a good 
economic investment.
    I don't want to keep saying this is just an economic 
equation, but investing $5 million in the building and then 
trying to make it pay out has been difficult. It is perhaps why 
we were encouraging the use of trying to find a private or 
third party that would wish to take over the building.
    There is a unique thing that happens to us when we acquire 
a building. I mentioned the 29 laws. All of a sudden they all 
apply. They own it, we are obligated to remove the asbestos and 
handicap the rest rooms and all of those kind of things.
    Mr. Horn. Is there asbestos in this building?
    Mr. Whitlock. The asbestos is mostly in the floor tile, 
which is not terribly dangerous, but remains an issue. So when 
we take over a building, we find ourselves having to do these 
things to accommodate most of that legislation. Sometimes when 
it goes to a third party, they don't have to do some of those 
things, so their investment level is going to be less.
    What I am trying to communicate is that we know where we 
need to be, we know what would be the right answer, but there 
is holes in getting there, and we haven't quite found a way to 
do that.
    Mr. Horn. Mayor Jenkins, let me ask you, having heard what 
Mr. Whitlock has to say and the thought we are exchanging here 
on the attraction of private people to that building as well as 
public service people, would there be a real rebellion downtown 
in other office buildings: What are you doing taking away my 
customers, et cetera? How much of a problem would that be if 
they found 1 of those 23 laws said they could move the square 
footage up and down?
    Mr. Jenkins. I am sure there would be some individuals who 
would have objection to that, especially if any of the other 
Federal agencies were to return to this building, obviously 
someone is going to be harmed, because they are paying rent to 
a private individual there. But for the greater good, the 
community wants the downtown revitalized. They want activity 
there; they don't want holes, they want buildings, they want 
people, they want activity. The local merchants want activity. 
They want customers. We also want a good mix of university and 
citizenry, a good marriage there, and this speaks to that.
    I try to look at this as basically this way. It is a 
Federal building. It has housed a Federal agency. It is owned 
by the Federal Government and maintained by the Federal 
Government. I would hate to see it change. It just causes--as 
Mr. Whitlock pointed out, change does cause problems at times, 
and in this particular instance I don't think change is 
necessarily that useful. I think we should do everything we can 
to bring the building up to snuff and then have all of these 
agencies return if at all possible and truly make it a Federal 
building with Federal services available to the local 
residents. It seems to be the most logical to me, and we would 
have all of this income stream from these agencies that are 
paying out rent to other places.
    Mr. Horn. Mr. Rynne, just for the Post Office, for the 
record, I am curious. Does the Post Office and the facilities 
it operates around the country try to get in private tenants to 
make up some of the space, or is that considered a no-no in the 
new postal corporation?
    Mr. Rynne. No. Actually, very definitely, we try to do 
that. In fact, it is our particular group, the Asset Management 
Group, that has that particular responsibility.
    Mr. Horn. How has that worked out? I mean, have you had 
customers ready that can use some of that space?
    Mr. Rynne. Oh, sure, sure.
    Mr. Horn. I would think, depending on the type of business, 
that they would love to be inside a Post Office.
    Mr. Rynne. Yes. There are occasions when it is a very, very 
nice fit.
    Mr. Horn. So how difficult is that in Indiana, in the 
Midwest, and what do you find there? Is there not that much 
movement or what?
    Mr. Rynne. My knowledge is, I think, fairly specific to the 
Terre Haute area and this particular facility. Generally--and 
it has clearly been a challenge. I think the most recent 
efforts, we have sort of detected a slight heartbeat over the 
last month or two, and it appears that there is a State agency, 
the Western Indian Community Action Agency, that appears to be 
interested in leasing a little under 2,000 square feet of 
space, and the bankruptcy trustee, who I think is actually 
listed as the U.S. Bankruptcy Trustee, I believe it is a 
private tenant, leases at 1,400 or 1,500 square feet and is 
interested in expanding that by about 500 or 600 square feet. 
The FBI also wants to add a little space. So without 
overstating that, there seems to be at least a heartbeat.
    If I could interject for a moment on the cost of the 
building, it currently--I think over the last year our 
extrapolated costs for running the building are a little over 
$200,000. Those are 1999 figures. I think the lease revenue, 
the projected rent stream for the building at this point is 
about $258,000, to the best of our calculations. So it doesn't 
seem--it is not a horror show, but it is clearly--but clearly, 
there is not a huge surplus there. It would be very helpful to 
pack some more tenants into that building.
    Mr. Horn. As I understand it now, if the Postal Service has 
excess space there, you could turn that over to GSA and just 
carve out, say--among that 15,314 square feet, you could carve 
out an area, could you, and then give the rest of the building 
to them? How does it work?
    Mr. Rynne. You mean and condominiumize the building in a 
sense?
    Mr. Horn. No. I am thinking if you have a situation where 
you have this facility outside in the suburbs, what--and you 
say maybe 8,000 feet is all you need, not 15,000 feet downtown, 
depending on how you do the internal architecture.
    Mr. Rynne. And we would hope even perhaps to squeeze it 
down from the 8,000 if it is possible.
    Mr. Horn. So if you turned that building over to GSA, how 
does that that work? Do you simply do a transfer to GSA, where 
you say, we don't need all of that space, but we would like to 
have 8,000 or 10,000?
    Mr. Rynne. Under normal circumstances, if we were simply to 
excess the building, which, once again, had been the original 
plan since there had not been under that scenario a postal 
retail station remaining in the building, under the interagency 
agreement that exists between the Postal Service and the 
General Services Administration, they would get first crack at 
the building, and then we would go through the normal triage of 
State and local agencies to see if there were public interest. 
Failing that, then we would try to market it publicly to the 
private sector.
    Mr. Horn. So it would be the routine Federal system, where 
it goes through HUD and HHS and Justice and so forth?
    Mr. Rynne. Right. That's right.
    Mr. Horn. Now, as I understand it, the Postal Service has 
the authority to enter into arrangements such as what was 
talked about earlier, public-private partnerships to leverage 
private sector financing to restore aging buildings, and I 
wonder, has the Postal Service explored this type of option to 
restore and outlease the building, and if not, why not? Have 
you done that in other cities?
    Mr. Rynne. We have certainly done that in other cities, but 
once again, that is principally a function of the market. I 
think the greatest successes have been in the various cities 
around the country; New York City, San Francisco. I think on a 
grander scale we have a very large building in Chicago, in fact 
it is the largest postal building in the world, almost 3 
million square feet, which we are attempting to excess through 
that type of method, but it is located near the Loop, and so 
the financial projections on a property like that are clearly 
vastly different from the current situation.
    Mr. Horn. So you think you would have a lot of customers in 
Chicago in that area?
    Mr. Rynne. We are hoping to. That project is currently 
under way.
    Mr. Horn. Well, we wish you well.
    How about projects more similar to the situation in Terre 
Haute and throughout the Midwest?
    Mr. Rynne. Not that I can think of in that area of the 
country. I think the most local example which conceptually has 
some similarities to what exists in Terre Haute is the building 
on Massachusetts Avenue, the so-called Postal Square 
Development, which is catty-corner from Union Station, which 
was clearly a success story for us, and in which there are 
many, many Federal tenants.
    Mr. Horn. That is the one where the postal museum is.
    Mr. Rynne. That is correct.
    Mr. Horn. That is a wonderful museum.
    Mr. Rynne. That is probably the apex of that kind of reuse.
    Mr. Horn. Is that pretty well occupied?
    Mr. Rynne. Yes.
    Mr. Horn. Probably filled with lobbyists, right?
    What is the general services organization's strategy, Mr. 
Creed, with regard to investing resources to upgrade or 
renovate historic properties, and when making investments 
decisions, does GSA treat historic properties any differently 
than other properties?
    Mr. Whitlock. I can probably answer that. GSA's funding for 
renovation, construction, and including historic properties 
comes from the collection of rents that we collect from each of 
our tenant agencies. We do not have the outside funding sources 
to capitalize our projects, so there is tremendous competition 
for the income we collect each year to aid the courthouses, 
renovate existing buildings, and it is just simply a matter of 
having no capital access. So it becomes a constant problem for 
us to accrue that capital, to find that capital.
    Mr. Horn. Now, you were a creation of the Hoover 
Commission, as I remember, in 1949, in 1952; there were two of 
them. You are not putting that money that you get from your 
tenants--let's say they are all Federal tenants, might be some 
private--into a revolving fund that you can use?
    Mr. Whitlock. It is a revolving fund. I mean, it is similar 
to a revolving.
    Mr. Horn. So how does it work? Does each region of GSA put 
in a plan that says, look, this is what we need to do the 
renovation, this is what we need for maintenance, this is what 
we need to maybe build new buildings or an extension of 
existing buildings?
    Mr. Whitlock. Yes. Precisely.
    Mr. Horn. How does that system work?
    Mr. Whitlock. The income stream is in the neighborhood of 
$5 billion. Off the top comes government contracts to lessors. 
That takes about $2 billion of it. Then the basic operation of 
our own inventory, which is roughly the other half of the space 
we control, takes another $2 billion. Those are the contracts 
to heat and maintain and operate. The last $1 billion becomes, 
in effect, the competition part for, A, construction, and, B, 
for renovation of buildings. It works, but like a lot of other 
public enterprises, it has probably over the years been 
underfunded. At least that is our opinion.
    Mr. Horn. So you have not tried to endow the system then, I 
take it?
    Mr. Whitlock. We have asked for endowments in either direct 
appropriations or some kind of financing authority. It has been 
discussed a number of times.
    Mr. Horn. How about OMB on this? Are they favorable to back 
you up on that?
    Mr. Whitlock. They normally fall back into the scoring 
rules and to the budgetary caps and find themselves limited in 
supporting us on that.
    Mr. Horn. How about the various appropriations 
subcommittees, have they been supportive or not supportive?
    Mr. Whitlock. Both. I mean, we have had appropriations 
before. Right now we seem to be in kind of a tight crunch. I 
know you all are, and so are we; so are most of the agencies. 
Our discussion with most agencies is they are severely looking 
at their costs, and it is causing changes in how they behave.
    Mr. Horn. Well, are they, despite the cap bit, is GSA going 
to push for that type of authority in the future? What is your 
thinking on that? Maybe, Mr. Creed, you should answer that one.
    Mr. Creed. I think we could look into that and get back to 
you later--that would be appropriate for us at this point.
    Mr. Horn. Yeah. Well, I would be interested in that just in 
general, since we are your oversight agency, what makes sense 
and what would give you flexibility to do your job better. I 
would think we would all be on the same side on that one.
    Mr. Whitlock. I think you would probably want to have an 
indepth discussion of those issues, because it plays out in a 
lot of areas. From strictly a real estate standpoint, without 
trying to deal with all of the other influencing factors, 
having a capital source becomes very critical in making it all 
work out. So it is--especially with the amount of Federal 
construction being requested. We have taken the position that 
constructing courthouses, which are very complex, is probably 
in the long term better than leasing them, so it becomes a 
capital demand on us.
    Mr. Horn. You mentioned maybe 4 weeks would give you enough 
time to look at some of the options on this?
    Mr. Creed. Yes, Congressman. With a 4-week period of time, 
we will go ahead and mobilize immediately outreach and see what 
we can come up with.
    Mr. Horn. Well, today is the 29th. We are going to be here 
on the next 29th, so what date would you like to pick? It is 
wide open.
    Mr. Creed. Well, the 29th.
    Mr. Horn. OK, fine. The Speaker hopes we will get out of 
here on the 29th, and we will hold a hearing. I have one 
already that morning to the Y2K stuff and contingency plans. We 
will just work in another. So let's shoot for that and try to 
get it up here so that we at least can read it before the 
hearing starts. We would appreciate that.
    Are there any comments that the gentleman from Texas would 
like to make, or any questions you would like to ask, or are 
you going to round this up?
    Mr. Turner. Just maybe two or three. One, I would like to 
ask where did the $5 million estimated renovation cost come 
from? Who came up with that number?
    Mr. Pease. It came from a conversation in my office when we 
asked the Postal Service and the GSA what it would cost to 
bring this building up to--what the expectations were, and one 
of them said, we don't know, probably $3 million. So we thought 
we were being generous in authorizing $5 million.
    Mr. Turner. OK. I think that is important, and I am sure as 
you do your study here over the next month, you can take a look 
at that. You know, even $100-a-square-foot renovation costs--I 
believe somebody said the building was 31,000 square feet; is 
that correct?
    Mr. Whitlock. It depends how you wish to measure it. It has 
roughly 70,000 of gross square footage, the only number that 
probably everybody can agree to.
    Mr. Turner. Well, obviously, that is important to 
understand that number, where it came from.
    Mr. Horn. Just for the record, total square feet is 75,202. 
Rentable square feet is 41,318. The basement currently used for 
storage is 18,800, and total rented space now is 30,899 square 
feet, that was 75 percent occupied, and total vacant space is 
10,419 square feet.
    Mr. Turner. And the Postal Service currently uses 15,000?
    Mr. Rynne. Approximately 15,000.
    Not to confuse the issue, but the 75,000 square feet was 
what we would refer to as the net interior measurement. The 
gross square footage, which I believe we had communicated to 
your staff, was approximatley 85,000 square feet.
    Mr. Horn. Does GSA and the Post Office have the same square 
footage?
    Mr. Rynne. We have had a number of discussions, and I think 
we are pretty close on the inside. The gross square footage is 
simply from building wall to building wall.
    Mr. Turner. Again, I commend Mr. Pease for bringing this 
forward. I don't look at this as just an issue that pertains to 
Terre Haute and Mr. Pease. This kind of problem occurs all over 
this country, and Federal agencies end up in buildings they no 
longer need, or tenants start moving out. There is a tendency 
when you are not motivated by the profit incentive and 
capitalistic drive to do something with the building to just 
sort of let it drift along, and it goes further down and 
further down and further down, and I think we have a 
responsibility to realize that different agencies have 
different primary interests, and those sometimes don't work 
together very well to accomplish the goal of being a 
responsible property owner at the Federal level.
    So this is our test case, I guess, Mr. Chairman, and 
hopefully these agencies will get together.
    One thing I want to say to the Postal Service. I really 
believe that you have to be a part of the solution here. It 
sounded real good to say where you are going to get a lease for 
20 years at no cost, but you are in the prime rental area on 
the first floor of this building, and if we are going to 
structure something here that is economically appropriate and 
fair to the taxpayers, it is probably going to require the 
Postal Service to take some responsibility here.
    When we talk about, as Mr. Waxman did, trying to alleviate 
the burden on the taxpayer, the last time I took note of the 
Postal Service, I was proud to see that you are running your 
business off of your own revenues now, and I commend you for 
that. The taxpayers don't pay 1 dime to run the Postal Service, 
and we may need just a little bit of that little profit you are 
making to make this a viable project.
    And to the mayor, one question I have for you is would the 
city be willing to give GSA access to or the right to use for 
perhaps an unlimited term some of the spaces in that city 
parking garage about a block away, because obviously there is a 
shortage of parking space to make this a viable rentable 
building. I think if the city would step forward and negotiate 
with the GSA in this discussion over the next month and perhaps 
pledge to set aside some parking spaces that then could be 
controlled by the GSA and leased, that would be a perfect 
parking place for a lot of employees who could walk a block to 
work and leave those closer spaces available to the customers. 
Would the city perhaps be willing to chip in at that level?
    Mr. Jenkins. Certainly, Mr. Turner. Thank you.
    Mr. Turner. I think that would help in the mix of the 
discussion here.
    I appreciate the GSA being willing to take a lead here for 
us. It wasn't your problem, you didn't ask for it. So we are 
grateful that you are willing to step in and help us work 
through this. Again, I commend Mr. Pease for his leadership on 
a very difficult issue.
    Mr. Horn. Well, I agree with the gentleman from Texas. I 
think it was well said, how he summed this up.
    Would the gentleman from Indiana have any comments or 
questions?
    Mr. Pease. My thanks to the chairman and the ranking 
member. You have been very supportive, and I am very grateful.
    Mr. Horn. Well, thank you.
    Let me just ask you, Mr. Rynne, I have never had a problem 
with the Post Office in my 68 years. Do you cover the North 
Topeka Post Office in Kansas at all, I am curious?
    Mr. Rynne. The asset management group of which I am a 
member actually has a national charter, but our focus is on 
trying to serve as a profit center for the Postal Service.
    Mr. Horn. You are based here in Washington.
    Mr. Rynne. Based in Washington, correct.
    Mr. Horn. Well, if you could tell me who I should file a 
complaint with. When I was at a hearing in Topeka, I sent 20 
volumes bought by me to California in my district office, and 
only one arrived, and the box looked like a Caterpillar tractor 
had gone over it. But if you can tell me who I deal with, I 
would appreciate it.
    Mr. Rynne. I will try to do that.
    Mr. Horn. Thank you very much. This has been a very 
worthwhile hearing, I can assure you.
    With that, we thank you all for coming. Each of you gave 
very useful testimony for us. We look forward to your options 
papers in 4 weeks.
    Thank you.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
